U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 17, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

United States, Ex Re!. Laurence Schneider v. JPMorgan Chae Bank,
National Association, et al., S.Ct. No. 19-678

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
20, 2019, and placed on the docket on November 26, 2019. The government's response is due
on December 26, 2019.
We respectftilly request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0678
UNITED STATES, EX REL. LAURENCE SCHNEIDER
JPMORGAN CHAE BANK, NATIONAL
ASSOCIATION, ET AL.

ROBERTO LUIGI DI MARCO
FOSTER, WALKER & DI MARCO, P.C.
350 MAIN STREET,
3RD FL
MALDEN , MA 02148
781-3223700
RDIMARCO@FWD-LAW.COM

